                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: A13030035                                                                        Page 1 of 1



                 We received allegations that a principal investigator1 manipulated research data in his Ph.D.
         thesis dissertation2 and in two publications3 . Our review of the matter determined that an ongoing
         open case4 is reviewing the same allegations. Accordingly, this case is closed with no further action
         taken.




NSF OIG Form 2 (11/02)
